OFFICE OF INSPECTOR GENERAL




    UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHINGTON, DC 20436




I hereby submit this Semiannual Report for the period April 1, 2008 through
September 31, 2008. The report summarizes the activities and accomplishments of
the Office of Inspector General and is submitted in accordance with the Inspector
General Act of 1978, as amended. Section 5 of this Act requires that the Chairman
transmit this report to the appropriate committees or subcommittees of Congress
within 30 days of receipt.

During this reporting period, one audit of Commission programs and operations was
issued. The audit was Federal Information Security Management Act FiscalYear
2008 Performance Audit, OIG-02-08. The report evaluated the current status of the
Commission’s information security program, identified improvements in the program
made during the past year, and issued recommendations designed to further protect
agency information assets.

The Office of Inspector General also conducted a peer review of the Federal Labor
Relations Authority Office of Inspector General, and commented on numerous
policies, directives and pending legislation. Work on the Fiscal Year 2008 financial
statement audit is ongoing at this time.

This office will continue to work constructively with the Commission to further our
common goal of assuring the effectiveness, efficiency and integrity of Commission
programs and operations. I appreciate the cooperation of all Commission employees
in accomplishing the achievements set forth in this report.




                                                    Judith C. Gwynn
                                                    Acting Inspector General
                                                    October 30, 2008
                                                      October 2008
                                                    Semiannual Report




                                        TABLE OF CONTENTS



THE OFFICE OF INSPECTOR GENERAL .........................................................................1

COMMISSION’S TOP MANAGEMENT CHALLENGES..................................................3

COMMISSION PROFILE......................................................................................................6

AUDITS ................................................................................................................................8
Reports Issued During this Period ........................................................................................ 8
On-Going Audits................................................................................................................... 9
Audit Follow–Up .................................................................................................................. 9

INSPECTIONS.....................................................................................................................10

INVESTIGATIONS .............................................................................................................11
Summary of Investigative Activity.......................................................................................11

OTHER ACTIVITIES ..........................................................................................................12
Legislative Review.............................................................................................................. 12
Directives Review............................................................................................................... 12
Government Accountability Office (GAO) ........................................................................ 13
Other ................................................................................................................................... 14
Liaison Activities ................................................................................................................ 14

REPORTING REQUIREMENTS INDEX...........................................................................16
Table 1: AUDIT REPORTS WITH QUESTIONED COSTS .............................................17
Table 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS
         BE PUT TO BETTER USE .................................................................................18

GLOSSARY .........................................................................................................................19




                                                                   i
                                      October 2008
                                    Semiannual Report




               THE OFFICE OF INSPECTOR GENERAL
The Commission established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act (IG Act). The OIG is headed by an Inspector
General (IG) who reports directly to the Chairman and Congress. As set forth in the IG Act,
as amended, the IG has the authority and responsibility to conduct objective and independent
audits, reviews and investigations of the agency’s programs and operations. Specifically, the
IG is responsible for promoting economy, efficiency, and effectiveness within the
Commission; preventing and detecting fraud, waste, abuse, and mismanagement in the
Commission’s programs and operations; providing comments and recommendations on
proposed legislation, regulations, and procedures affecting the Commission; and keeping the
Chairman and the Congress fully and currently informed of problems in agency programs
and operations.

The OIG organization consists of four positions: and Inspector General; an Assistant
Inspector General for Audit; a Counsel; and an Administrative Specialist.


                  Office of Inspector General: Organization
 Full-time
     Acting Inspector
     General



                                                                                Part-time
    Assistant Inspector               Administrative                   Counsel to the
    General for Audit                   Specialist                   Inspector General




                                             1
                              October 2008
                            Semiannual Report




                          OIG Points of Contact

Phone          202-205-2202                       Hotline:
Fax            202-205-1859                       1-800-500-0333
OIG internet   www.usitc.gov/oig                  OIGHotline@usitc.gov




                                    2
                                      October 2008
                                    Semiannual Report




     COMMISSION’S TOP MANAGEMENT CHALLENGES
The “Top Management Challenges” facing the Commission as identified by the Acting
Inspector General are discussed below. This assessment is based on information from OIG
audit and inspection work, a general knowledge of the Commission’s programs and
activities, and input from management on what challenges the agency is facing and the
efforts the agency has taken to address the challenges.

The OIG believes the major challenges, in order of priority, facing the Commission are:

Financial Management

During this reporting period, the OIG conducted an audit the Commission’s 2007 and 2008
financial statements with the contracted services of an Independent Public Accountant.
Based on the results to date, we anticipate issuing an unqualified opinion along with several
recommendations related to strengthening internal controls over the program.

The challenge to the Commission comes with the implementation of a new automated
financial system on October 1, 2008. The system was provided by an established service
provider, the National Business Center of the Department of Interior. The upgraded system
was much needed and will provide faster, more reliable financial data to the Office of
Finance and agency mangers. However, with the implementation of any major, new system
come certain risks related to reliability, the conversion of legacy data, adequate training of
staff and managers, developing new policies and procedures, and ensuring effective internal
controls. The Office of Administration will be challenged in FY 2009 to stand up a new
system, including an integrated procurement feature for the first time, and convincing
managers and financial staff the system is usable, reliable, and timely. This period of
transition may take one year or longer.

Management Challenge: Information Technology Security.

The FY 2008 Federal Information Security Management Act (FISMA) audit found that the
Commission made significant progress in improving its information security controls and
practices by strengthening firewall rules, implementing baseline configurations for network
devices and Windows servers, and deploying a centralized logging solution. The
Commission had also improved their annual security controls self-assessment testing to


                                              3
                                      October 2008
                                    Semiannual Report




include National Institute of Standards and Technology (NIST) required minimum-security
control. In addition, the Commission had completed corrective action on seventeen
recommendations from prior years, and four items remain open.

However, the audit report identifies four areas in which the Commission should implement
corrective actions to help further ensure that its information security risk management
program and practices comply with applicable NIST standards and guidelines and FISMA
requirements. The weaknesses identified by the audit present a challenge to the Commission
to find the resources to strengthen the program and protect Commission data in a timely
manner.


Strategic Management of Human Capital.

The Commission’s ability to successfully execute activities in support of its mission depends
on a highly skilled and experienced workforce. However, the Commission continues to be
challenged by a high vacancy rate. At the end of September 2008, the Commission had a 15
percent vacancy rate. Furthermore, a significant percentage of its workforce is reaching
retirement eligibility at a time when there is an increase in work. The increased work
includes Title VII investigations (antidumping and countervailing duties under the Tariff Act
of 1930) and Section 337 investigations (alleged intellectual property infringement and other
unfair acts under 19 U.S.C. Section 1337).

The Commission developed a Strategic Human Capital Management Plan intended to be an
essential component of the organization’s strategic planning. This plan identified actions
needed to accomplish the following goals:

1. Create and sustain an organizational culture that supports and rewards high performance.
2. Attract and retain a high-performing workforce with the technical and professional skills
   needed.
3. Continuously develop workforce skills in line with changing Commission requirements.
4. Allocate human resources across organizational components to efficiently respond to
   changing workload requirements.

The Commission completed the first phase of its new performance management system, a
huge gain in implementing a pay for performance system. During FY 2008, the Commission
completed a one year pilot program of the system with volunteers from the Offices of
Operations and Administration. Using information from the pilot program, the


                                             4
                                     October 2008
                                   Semiannual Report




Commission plans to address needs not previously considered, such as developing standards
and elements for unanticipated occupational groups and ad hoc team leader positions.

For senior level employees, the Commission developed a proposal to obtain certification of a
Senior Executive Service (SES) performance appraisal system. As directed by the Office of
Personnel Management, “the performance expectations for individual senior employees
should (1) reflect expected agency and/or organizational outcomes and outputs, performance
targets or metrics, policy/program objectives, and/or milestones; (2) identify specific
programmatic crosscutting, external, and partnership-oriented goals or objectives, as
applicable; and (3) be stated in terms of observable, measurable, and/or demonstrable
performance.”

To attract, retain and continually develop personnel, the Commission implemented several
initiatives. The Commission offered relocation expenses, retention bonuses, reimbursement
of student loans, professional development and training, and telecommuting to its employees.
Approximately 80 percent of Commission staff participated in the telecommuting program.
Also, in response to the changes in the Commission’s workload and large vacancy rate, the
Director of the Office of Operations has provided cross-training to employees.




                                             5
                                      October 2008
                                    Semiannual Report




                           COMMISSION PROFILE
                                    http://www.usitc.gov

The Commission is an independent, quasi–judicial federal agency with broad investigative
responsibilities on matters of trade. Its mission is to: administer U.S. trade remedy laws
within its mandate in a fair and objective manner; provide the President, the U.S. Trade
Representative (USTR) and the Congress with independent, quality analysis, information,
and support on matters of tariffs and international trade and competitiveness; and maintain
the Harmonized Tariff Schedule of the U.S. In so doing, the Commission serves the public
by implementing U.S. law and contributing to the development of sound and informed U.S.
trade policy. Major Commission activities include:

       •   Import Injury Investigations—The Commission makes determinations in a
           variety of import injury investigations, primarily antidumping and countervailing
           duty (AD/CVD) investigations concerning the effects of unfairly traded imports
           on U.S. industries.
       •   Intellectual Property–Based Investigations—The Commission adjudicates
           complaints under 19 U.S.C. Section 1337 that allege infringement of U.S.
           intellectual property rights and other unfair methods of competition by imported
           goods.
       •   Industry and Economic Analysis—The Commission’s industry and economic
           analysis program consists of probable economic effects investigations primarily
           under section 131 of the Trade Act of 1974 or section 2104 of the Trade Act of
           2002; analysis of trade and competitiveness issues under section 332 of the Tariff
           Act of 1930; and independent assessments on a wide range of emerging trade
           issues.
       •   Tariff and Trade Information Services —The Commission’s trade information
           services include such activities as legislative reports; maintenance of the
           Harmonized Tariff Schedule; maintenance of the online Data Web and Tariff and
           Trade Database; preparation of U.S. submissions to the Integrated Database of the
           World Trade Organization; and certain other information gathering, processing,
           and dissemination activities.




                                             6
                                     October 2008
                                   Semiannual Report




       •   Trade Policy Support—The Commission supports the formulation of U.S. trade
           policy, providing objective input to both the Executive Branch and the Congress
           on the basis of the distinctive expertise of its staff.

The six Commissioners are appointed by the President and confirmed by the Senate. They
each serve one nine-year term, unless appointed to fill an unexpired term. No more than three
Commissioners may be of the same political party. The Chairman and Vice Chairman are
designated by the President and serve a 2–year statutory term. The Chairman is responsible,
within statutory limits, for the administrative functions of the Commission.

The current Chairman is Shara L. Aranoff and the Vice Chairman is Daniel R. Pearson. The
other Commissioners are Deanna Tanner Okun, Charlotte R. Lane, Irving A. Williamson,
and Dean A. Pinkert.

For FY 2009, the Commission requested a budget of $75,100,000. However, at the time of
this report, the Commission was operating on a Continuing Resolution and no permanent
funding level had been approved. For FY 2008, Congress approved funding for the
Commission of $68,400,000. The FY 2008 staffing plan is for 407 permanent positions and
16 term/temporary positions for a total of 423 positions. All employees are located at 500 E
Street, SW, Washington, DC.




                                             7
                                       October 2008
                                     Semiannual Report




                                          AUDITS

Reports Issued During this Period

Federal Information Security Management Act Fiscal Year 2008 Performance Audit
(OIG-AR- 02-08 September 30, 2008)

The FY 2008 Federal Information Security Management Act (FISMA) audit was conducted
by an Independent Public Accountant with the objective of determining if the Commission’s
information security policies and program met FISMA criteria, and if the Commission
implemented appropriate actions to correct weaknesses identified in prior year FISMA audit
reports.

Based on the work performed and, except for the discrepancies noted as part of this
performance audit, we determined that the Commission’s information security program,
consisting of plans, policies, and procedures and security controls, is in place and is generally
consistent with FISMA requirements.

The audit found that during the last year the Commission made significant progress in
improving its information security controls and practices by strengthening firewall rules,
implementing baseline configurations for network devices and Windows servers, and
deploying a centralized logging solution. The Commission had also improved their annual
security controls self-assessment testing to include National Institute of Standards and
Technology (NIST) required minimum-security control. In addition, the Commission had
completed corrective action on seventeen recommendations from prior years, with four items
remaining open.

However, the audit report identifies four areas in which the Commission should implement
corrective actions to help further ensure that its information security risk management
program and practices comply with applicable NIST standards and guidelines and FISMA
requirements. The weaknesses identified by the audit present a challenge to the Commission
to find the resources to strengthen the program and protect Commission data in a timely
manner.



                                               8
                                        October 2008
                                      Semiannual Report




The OIG made fourteen new recommendations to improve Commission information
technology security. Management agreed with all fourteen recommendations and has
provided a corrective action plan.

Due to the sensitive nature of this report, distribution is limited.


On-Going Audits

USITC’s Financial Statements for Fiscal Years 2008 and 2007 and the Commission’s
Management Challenges

An Independent Public Accountant (IPA), working under OIG supervision, is performing the
audit of the Commission’s Fiscal Years 2008 and 2007 financial statements. The results of
this audit will be reported in November 2008.



Audit Follow–Up

Recommended corrective actions remain open on one audit report in the previous semiannual
report:

Evaluation of the U.S. International Trade Commission’ Fiscal Year 2005 Information
Security Program and Practices Audit Report (OIG-AR-04-05, September 27, 2005)

The OIG conducted an audit to determine whether the Commission’s information security
program and practices were in compliance with federal regulations. The audit resulted in 23
recommendations. The Commission has completed action on all but four items.

Due to the sensitive nature of this report, distribution is limited.

Management Letter for the Fiscal Year 2007 Audit of the U.S. International Trade
Commission’s Financial Statements (OIG-AR-01-08)

The letter made seven recommendations to assist the Commission in improving financial
operations. Six of the recommendations remain open.


                                                 9
                                     October 2008
                                   Semiannual Report




                                  INSPECTIONS
No inspections have been performed during this reporting period.




                                            10
                                    October 2008
                                  Semiannual Report




                               INVESTIGATIONS
The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.

                        Summary of Investigative Activity

During the period, there were no open cases. A summary of investigative activity is
presented below.


 Case Workload                  Referrals                    Investigative Results
                                Processed


                            Received from
 Open (04/01/08)    0                             0       Referrals for Prosecution     0
                            Hotline
                            Referred to OIG
                                                          Referrals Declined for
 Initiated          0       Audit & Inspection    0                                     0
                                                          Prosecution
                            Division
                            Referred to
 Closed             0                             0       Administrative Action         0
                            Commission
                            Referred to other
 Open (09/30/08)    0                             0
                            Federal Agencies
                            Evaluated but No
                            Investigation         0
                            Initiated




                                            11
                                       October 2008
                                     Semiannual Report




                                OTHER ACTIVITIES

Legislative Review

H.R. 928 Inspector General Act Amendments

As of September 27, 2008, both the House of Representatives and the Senate passed H.R.
928, the Inspector General Reform Act. Since the bill has been cleared by both houses of
Congress, it has been sent to the President, for his signature. The President signed the bill on
October 14, 2008.

The Inspector General Act Amendments address Inspectors General appointment, pay,
prohibition on bonuses, and removal. In addition, the bill deals with OIG access to
independent legal counsel, budget requests, law enforcement authority, subpoenas, program
fraud civil remedies, websites, and semiannual reporting requirements. Furthermore, the
proposal establishes a Council on Integrity and Efficiency, which consists of all Federal
Inspectors General and other specific government officials, such as the Deputy Director for
Management of the Office of Management and Budget and a senior level official of the
Federal Bureau of Investigation designated by the Director of the Federal Bureau of
Investigation. As part of its duties, the Council shall form an Integrity Committee to
investigate allegations made against Inspectors General or specified staff members. Also, the
Council will recommend possible replacements for vacant Inspectors General positions.

S.789 - Government Credit Card Abuse Prevention Act of 2007, and
H. R. 1395 - Government Credit Card Abuse Prevention Act of 2007

The OIG provided comments on S.789, Government Credit Card Abuse Prevention Act of
2007and H.R. 1395, Government Credit Card Abuse Prevention Act of 2007. The proposed
provisions would impose additional duties on OIGs: investigations, risk assessments, audits,
and reporting requirements, without providing funding for resources to complete the
increased workload.




                                              12
                                      October 2008
                                    Semiannual Report




Directives Review

Senior Executive Service Performance Management System

The OIG provided comments on draft directive that would establish a Senior Executive
Service Performance Management System. The draft directive sets forth criteria for
performance awards, setting pay, reassignment, and removal of senior executives.


Government Accountability Office

The Inspector General Act states that each Inspector General shall give particular regard to
the activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. During this period, the
Government Accountability Office issued two reports related to Commission activities.
None of the reports contained a recommendation for the Commission. The reports are:

Intellectual Property: Leadership and Accountability Needed to Strengthen Federal
Protection and Enforcement; GAO-08-921T June 17, 2008.

International Trade: The United States Needs an Integrated Approach to Trade Preference
Programs; GAO-08-907T June 12, 2008.




                                             13
                                     October 2008
                                   Semiannual Report




Other – Management Assistance
Executive Order: Executive Branch Responsibilities with Respect to Orders of Succession
President Bush signed an Executive Order (EO) relating to Executive Branch
Responsibilities with Respect to Orders of Succession, on September 11, 2008. The OIG
provided assistance to the Commission by determining that the EO is applicable. However,
the Commission does need to take any action because succession planning is set forth in 19
U.S. Code § 1330. At the Commission, the President shall designate a successor chairman or
vice chairman, for the remainder of the term. The vice chairman shall act as chairman in
case of the absence or disability of the chairman. During any period in which there is no
chairman or vice chairman, the commissioner having the longest period of continuous service
as a commissioner shall act as chairman (19 USC § 1330 (c) (4)). Pursuant to the EO, the
Commission should maintain succession in accordance with the law.

Human Capital Plan
The OIG develop the first ever OIG Human Capital Plan during this reporting period. The
plan is integrated with the existing Commission Human Capital Plan and seeks to relate OIG
human capital development to the achievement of the Commission’s mission. The OIG plan
addresses mission and business environment, changing workload and IG mandate, resource
needs, workforce requirements, and plans for future office structure. The plan will be
updated as often as necessary.




                                           14
                                     October 2008
                                   Semiannual Report




Liaison Activities

Audit Peer Review of the Federal Labor Relations Office of Inspector General

During this reporting period, the OIG reviewed the system of quality control for the audit
function of the Federal Labor Relations Authority (FLRA) Office of Inspector General in
effect for the year ended March 31, 2008. The review was conducted in accordance with the
guidelines established by the President’s Council on Integrity and Efficiency and the
Executive Council on Integrity and Efficiency. In performing our review, the OIG obtained
an understanding of the system of quality control for the FLRA Office of Inspector General.
In addition, the OIG tested compliance with quality control policies and procedures. The
OIG review would not necessarily disclose all weaknesses in the system of quality control or
all instances of lack of compliance with it. Nevertheless, the procedures the OIG performed
provide a reasonable basis for the opinion that the FLRA Office of Inspector General was
generally in compliance with generally accepted government auditing standards.

Executive Council on Integrity and Efficiency

The Acting Inspector General participates in activities sponsored by the Executive Council
on Integrity and Efficiency. Established by Executive Order 12805 on May 11, 1992 the
Council is chaired by the Office of Management and Budget and, in addition to Inspectors
General, includes representatives from the Office of Personnel Management, the Office of
Government Ethics, the Office of Special Counsel and the Federal Bureau of Investigation.
The Council functions and responsibilities are to promote integrity and efficiency and to
detect and prevent fraud, waste and abuse in federal programs.




                                            15
                                     October 2008
                                   Semiannual Report




                REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
semiannual reports.
CITATION          REPORTING REQUIREMENTS                                         PAGE
Section 4(a)(2)   Recommendations concerning the impact of such legislation
                  or regulations on the economy and efficiency in the
                  administration of programs and operations administered or
                  financed by the Commission                                       None
Section 5(a)(1)   Description of significant problems, abuses, and deficiencies
                  relating to the administration of programs and operations        None
Section 5(a)(2)   Description of the recommendations for corrective action
                  made with respect to significant problems, abuses, or
                  deficiencies                                                       8
Section 5(a)(3)   Identification of each significant recommendation described
                  in previous semiannual reports on which corrective action has
                  not been completed                                                 9
Section 5(a)(4)   Summary of matters referred to prosecutive authorities and
                  the prosecutions and convictions which have resulted             None
Section 5(a)(5)   Summary of each report made to the head of the
                  establishment under which information or assistance was
                  unreasonably refused                                             None
Section 5(a)(6)   Listing of each audit report                                        8
Section 5(a)(7)   Summary of each significant report                                 8
Section 5(a)(8)   Statistical tables showing Audit Reports–Questioned Costs          17
Section 5(a)(9)   Statistical tables showing Audit Reports–Funds Put to Better
                  Use                                                                18
Section 5(a)(10) Summary of each audit report issued before the
                  commencement of the reporting period for which no
                  management decision has been made by the end of the
                  reporting period                                                 None
Section 5(a)(11) Description and explanation of the reasons for any significant
                  revised management decisions                                     None
Section 5(a)(12) Information concerning any significant management decision
                  with which the Inspector General is in disagreement              None



                                            16
                                      October 2008
                                    Semiannual Report




     Table 1: AUDIT REPORTS WITH QUESTIONED COSTS

                                                                    Dollar Value

                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs

A.    For which no management decision has been made
      by the commencement of the period                    0        0              0

B.    Which were issued during the reporting period        0        0              0

      Subtotals (A + B)

C.    For which a management decision was made during
      the reporting period                            0             0              0

      (i) Dollar value of disallowed costs                 0        0              0

      (ii) Dollar value of costs not disallowed            0        0              0

D.    For which no management decision has been made
      by the end of the reporting period                   0        0              0

E.    Reports for which no management decision was
      made within six months of issuance                   0        0              0




                                             17
                                    October 2008
                                  Semiannual Report




     Table 2: AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE
                                                        Number of   Dollar
                                                         Reports    Value

A.    For which no management decision has been made
      by the commencement of the period                     0         0

B.    Which were issued during the reporting period         0         0

      Subtotals (A + B)

C.    For which a management decision was made during
      the reporting period                                  0         0

      (i) Dollar value of recommendations that were
          agreed to by management                           0         0

      (ii) Dollar value of recommendations that were
       not agreed to by management                          0         0

D.    For which no management decision has been made
      by the end of the reporting period                    0         0

E.    Reports for which no management decision was
      made within six months of issuance                    0         0




                                           18
                                       October 2008
                                     Semiannual Report




                                      GLOSSARY
The following definitions apply to the terms used in this report.

Questioned cost             means a cost that is questioned because of: (1) an alleged
                            violation of a provision of a law, regulation, contract, grant,
                            cooperative agreement, or other agreement or document
                            governing the expenditure of funds; (2) a finding that, at the time
                            of the audit, such cost is not supported by adequate
                            documentation; or (3) a finding that the expenditure of funds for
                            the intended purpose is unnecessary or unreasonable.

Unsupported cost            means a cost that is questioned because at the time of the audit,
                            such cost is not supported by adequate documentation.

Disallowed cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendations that        means a recommendation that funds could be used more
funds be put to better      efficiently if management of an establishment took actions to
use                         implement and complete the recommendation, including: (1)
                            reduction in outlays; (2) deobligation of funds from programs or
                            operations; (3) withdrawal of interest subsidy costs on loans or
                            loan guarantees, insurance, or bonds; (4) costs not incurred by
                            implementing recommended improvements related to the
                            operations of the establishment, a contractor or grantee; (5)
                            avoidance of unnecessary expenditures noted in preaward reviews
                            of contract or grant agreements; or (6) any other savings which
                            are specifically identified.




                                              19
